No. 20-1029
IN THE

Supreme Court of the United States
————
CITY OF AUSTIN, TEXAS,
Petitioner,

v.

REAGAN NATIONAL ADVERTISING OF TEXAS,
INCORPORATED, et al.,
Respondents.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit
————
BRIEF IN OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI
————
B. RUSSELL HORTON
GEORGE, BROTHERS, KINCAID
& HORTON, LLP
114 West 7th Street
1100 Norwood Tower
Austin, Texas 78701

J. ALLEN SMITH
Counsel of Record
SETTLEPOU
3333 Lee Parkway
Eighth Floor
Dallas, Texas 75219
(214) 520-3300
asmith@settlepou.com

Counsel for Respondents
May 12, 2021
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D.C. 20002

QUESTION PRESENTED
The City of Austin’s former sign code contained a
general prohibition on all signs that carried a
message, whether commercial or noncommercial, that
advertised a business, person, activity, goods, products, or services not located where the sign was
installed. It also prohibited messages that directed
persons to any location not on the same site as the
sign. The regulation prohibited such speech regardless of where the sign was located. Whether a sign
violated the code was based on what the sign said.
Following the analysis set forth in Reed v. Town of
Gilbert, the Fifth Circuit ruled that this particular
prohibition on speech was content-based on its face
and failed the strict scrutiny test. The question
presented here is:
Was the City of Austin’s prohibition of certain
noncommercial messages a content-based regulation
subject to strict scrutiny under Reed?

(i)

ii
PARTIES TO THE PROCEEDING BELOW
AND RULE 29.6 STATEMENT
Petitioner is the City of Austin, Texas, which was
the defendant in the district court and the appellee in
the appeals court.
Respondents are Reagan National Advertising of
Austin, Incorporated, the appellant below and plaintiff
in the district court, and Lamar Advantage Outdoor
Company, L.P., appellant below and intervenor in the
district court.
Reagan National Advertising of Austin, Incorporated
has no parent corporation, and no publicly held
company owns 10% of its stock.
Lamar Advantage Outdoor Company, L.P. is a
wholly-owned subsidiary of Lamar Advertising Company, a company publicly traded on the New York
Stock Exchange. Lamar Advertising Company has no
parent corporation, and no publicly held company
owns 10% of its stock.

TABLE OF CONTENTS
Page
QUESTION PRESENTED ..................................

i

PARTIES TO THE PROCEEDING BELOW
AND RULE 29.6 STATEMENT ......................

ii

TABLE OF AUTHORITIES ................................

v

INTRODUCTION ................................................

1

STATEMENT ......................................................

3

ARGUMENT ........................................................

6

A. The Fifth Circuit’s decision does not raise
an important question of federal law that
needs to be settled by this Court ..............

6

1. The Fifth Circuit’s holding was completely consistent with Reed’s majority
opinion .................................................

6

2. Metromedia’s test for regulation of
commercial speech is unaffected by
the Fifth Circuit’s holding ...................

9

3. Local governments are already
adjusting their laws to ensure that
Metromedia will continue to apply to
their billboard regulations ..................

11

4. Austin’s ability to regulate digital
displays remains firmly in place .........

12

B. As Austin concedes, the Fifth Circuit’s
decision does not conflict with other
circuit courts of appeals decisions ............

13

C. The Fifth Circuit’s decision was correct...

19

(iii)

iv
TABLE OF CONTENTS—Continued
Page
1. Austin’s goals and motives are
irrelevant under Reed .........................

19

2. Austin’s regulation is not based on the
location of the sign, but on what the
sign says. ..............................................

20

3. Austin asks this Court to carve out an
unnecessary and problematic exception
to Reed..................................................

23

CONCLUSION ....................................................

26

v
TABLE OF AUTHORITIES
CASES

Page(s)

Ackerley Commc’n of Mass., Inc. v.
City of Cambridge,
88 F.3d 33 (1st Cir. 1996) ............. 20, 21, 24, 25
Act Now to Stop War and End Racism
Coal’n v. Dist. of Columbia,
846 F.3d 391 (D.C. Cir.), cert. denied,
138 S. Ct. 334 (2017) ................................. 16, 17
Adams Outdoor Advertising Ltd. P’ship v.
Pa. Dep’t. of Transp.,
930 F.3d 199 (3d Cir. 2019).......................

16

Asgeirsson v. Abbott,
696 F.3d 454 (5th Cir. 2012), cert.
denied, 568 U.S. 1249 (2013) ....................

8

Burkhardt Advertising, Inc. v. City of
Auburn, Indiana,
786 F. Supp. 721 (N.D. Ind. 1991) ............

21

Central Hudson Gas & Electric Corp. v.
Public Service Comm’n,
447 U.S. 557 (1980) ..................................passim
Citizens United v. Federal Election Comm’n,
558 U.S. 310 (2010) ...................................

17

City of Houston v. Commons at
Lake Houston, Ltd.,
587 S.W.3d 494 (Tex. App.—Houston
[14th Dist.] 2019, no pet.) .........................

5

City of Ladue v. Gilleo,
512 U.S. 43 (1994) .....................................

9

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Contest Promotions, LLC v. City & C’ty of
San Francisco,
2017 WL 1493277 (N.D. Cal. 2017), aff’d
874 F.3d 597 (9th Cir. 2017) ........... 9, 12, 14, 15
GEFT Outdoor, L.L.C. v. City of Westfield,
491 F. Supp. 3d 387 (S.D. Ind. 2020) .......

15

L.D. Management Co. v. Gray,
988 F.3d 836 (6th Cir. 2021) .....................

22

Matthews v. Needham,
764 F.2d 58 (1st Cir. 1985) ....................... 18, 23
McCullen v. Coakley,
573 U.S. 464 (2014) ...................................

17

Members of the City Council of Los Angeles
v. Taxpayers for Vincent,
466 U.S. 789 (1984) ...................................

18

Metromedia, Inc. v. City of San Diego,
453 U.S. 490 (1981) ..................................passim
Rappa v. New Castle County,
18 F.3d 1043 (3d Cir. 1994) ......................

16

Reagan Nat’l Advert. of Austin, Inc. v.
Cedar Park,
387 F. Supp.3d 703 (W.D. Tex. 2019)....... 15-16
Reed v. Town of Gilbert,
576 U.S. 155 (2015) ..................................passim
RTM Media, L.L.C. v. City of Houston,
584 F.3d 220 (5th Cir. 2008) ..................... 10, 24
Solantic, LLC v. Neptune Beach,
410 F.2d 1250 (11th Cir. 2005) .................

23

vii
TABLE OF AUTHORITIES—Continued
Page(s)
Thomas v. Bright,
937 F.3d 721 (6th Cir. 2019), cert.
denied, 141 S. Ct. 194 (July 9, 2020).......passim
Thomas v. Schroer,
248 F. Supp. 3d 868 (W.D. Tenn. 2017) ...

12

CONSTITUTION
U.S. Const. amend. I ...................................passim
U.S. Const. amend. XIV ...............................

10

STATUTES
TEX. LOC. GOV’T CODE ANN. § 245.002(a)(1) ...

5

INTRODUCTION
The Fifth Circuit held in this case that a sign
regulation that restricts both commercial and
noncommercial signs based on the message the sign
carries is a content-based regulation subject to strict
scrutiny. The particular regulation at issue, which
is no longer in effect, had prohibited the display
of “off-premise” messages, including noncommercial
messages, on digital sign faces. Petitioner City of
Austin’s statement that its sign code provisions
“distinguish between on-premise and off-premise
signs based solely on location” is simply wrong. Pet. 1.
Austin’s code distinguishes between on-premise and
off-premise signs based solely on the message that the
sign carries.
As Austin concedes, its Petition presents an underdeveloped question with no direct conflict among the
circuit courts of appeals. Pet. 17, 21. Just 10 months
ago, this Court denied certiorari in Thomas v. Bright,
a case which, in the Fifth Circuit’s view, involved a
nearly identical question. Pet. App. 15a. Thomas v.
Bright, 937 F.3d 721 (6th Cir. 2019), cert. denied, 141
S. Ct. 194 (July 9, 2020). Austin presents no argument
to suggest that this case provides a better vehicle to
address the question presented, particularly where, as
here, the sign code provision at issue was repealed
even before the case went to trial.
Austin claims the Fifth Circuit hamstrings its
ability to regulate digitized signs. Pet. 1. This characterization of the decision below is wrong on multiple
levels. First, the Fifth Circuit’s decision concerns
whether city regulations may distinguish between
certain signs based on the content of the messages
the sign carries, not the technology employed to
display the message. Second, Austin unquestionably

2
may regulate the type of technology used on signs
where the regulations do not discriminate based
on content. Third, Austin may even continue to discriminate based on content as long as the regulation
does not apply to noncommercial speech.
In holding that Austin’s prohibition of “off-premise”
messages was a content-based regulation, the Fifth
Circuit faithfully followed the majority opinion in Reed
v. Town of Gilbert, 576 U.S. 155 (2015). At the same
time, because its ruling was limited to regulations that
implicate noncommercial speech, the Fifth Circuit’s
decision was entirely consistent with this Court’s
decision in Metromedia, Inc. v. City of San Diego,
453 U.S. 490 (1981). Metromedia held that although
local governments may make on-premise/off-premise
distinctions in regulating commercial speech, they
may not make content-based distinctions in regulating
noncommercial speech, which enjoys greater protection.
There is no indication that local governments are
having trouble adjusting their on-premise/off-premise
regulations to exempt noncommercial speech. In fact,
Austin has already done just that. In spite of that fact,
Austin asks this Court to carve out an exception to
Reed. The proposed exception would allow local governments to prohibit signs carrying noncommercial
messages if the message refers to persons, activities or
services that are not located on the same site as the
sign.
Such an exception would have its own First
Amendment flaw. It would value some noncommercial
speech over other noncommercial speech, as well as
favoring some commercial speech over noncommercial
speech. Moreover, it is completely unnecessary. In
this case, there is no direct conflict in the circuit courts

3
of appeal, no dispute concerning Austin’s own current
regulation, and no indication of actual confusion
among local governments as to how they may lawfully
make on-premise/off-premise distinctions. This is not
the case, nor is it the time, for this Court to consider
whether it should revise the majority opinion in Reed.
STATEMENT
The issue before the Fifth Circuit was the constitutionality of Austin’s former sign code provision
that had prohibited signs from carrying particular
messages. The code had a general prohibition of
signs carrying so-called “off-premise” messages. “Offpremise” was defined as a message that “advertised a
business, person, activity, goods, products, or services
not located where the sign was installed, or that
directs persons to any location not on that site.” Pet.
App. 2a-3a.
Respondents, Reagan National Advertising of Austin,
Incorporated, and Lamar Advantage Outdoor Company, L.P., own sign structures that publish “offpremise” messages. In spite of its general prohibition,
Austin’s sign code allowed Respondents’ signs to
continue to display such messages as “grandfathered”
or “non-conforming” signs. Pet. App. 3a. However,
these grandfathered signs were subject to strict limitations. One limitation was that they were prohibited
from using “electronically controlled changeable copy”
(i.e., “digital signs”). Pet. App. 3a. As a result of
this statutory framework, messages falling outside the
definition of “off-premise” could be displayed on a
digital sign. But other messages, such as ones that
directed persons to other locations or that advertised
an activity at another location, could not be displayed
on a digital sign. Pet. App. 3a.

4
Respondents Reagan and Lamar believed that
Austin’s prohibition of “off-premise” messages, and the
restrictions on grandfathered signs carrying those
messages, was unconstitutional. So they applied for
permits that would allow them to change some of their
existing sign structures to digital signs. Pet. App. 34a.
The City denied their permit applications, and Reagan
and Lamar sued. They claimed that the distinction
the City drew between certain messages was contentbased and subject to strict scrutiny under Reed v.
Town of Gilbert.
After a trial, the district court held that the City’s
distinctions between on-premise and off-premise
signs were not subject to strict scrutiny under Reed.
Instead, the court held the regulation was subject
to the intermediate scrutiny standard applicable to
commercial speech, although the regulations applied
to both commercial and noncommercial speech. Pet.
App. 50a.
The intermediate scrutiny test provides that a
restriction of otherwise protected commercial speech
is valid if it seeks to implement a substantial
government interest, directly advances that interest,
and reaches no further than necessary to accomplish
the given objective. Central Hudson Gas & Electric
Corp. v. Public Service Comm’n, 447 U.S. 557, at 56366 (1980).
In 1981, this Court held that the Central Hudson
intermediate scrutiny test was to be applied to
restrictions on commercial speech displayed on billboards. Metromedia, Inc. v. City of San Diego, 453
U.S. 490, 507 (1981). However, the decision in
Metromedia resulted in a finding that San Diego’s sign
ordinance was “unconstitutional on its face” in its
regulation of noncommercial speech. 453 U.S. at 522.

5
The parties do not dispute that Austin’s prohibition
of off-premise messages had applied to both commercial and noncommercial speech. Nor is there any
dispute that Reagan and Lamar publish noncommercial speech as well as commercial speech. Pet. App. 2a3a.
Even before this case went to trial, Austin amended
its sign code so that the term “off-premise” would
not apply to noncommercial messages. Pet. App. 4a.
While this action may have cured the code’s constitutional deficiency, it did not resolve the narrow issue
raised by Reagan and Lamar. This is because under
Texas law, their permit applications are governed by
the law in place at the time the applications were filed.
Pet. App. 7a.; TEX. LOC. GOV’T CODE ANN. § 245.002(a)
(1).
The Texas law relied upon by Reagan and Lamar
creates rights commonly referred to as “vested rights.”
City of Houston v. Commons at Lake Houston, Ltd.,
587 S.W.3d 494, 499 (Tex. App.—Houston [14th Dist.]
2019, no pet.). The statute creates a system by which
property owners may rely on a municipality’s land-use
regulations in effect at the time the original application for a permit had been filed. Id. Chapter 245
“freezes” the rules at the time the original permit
application is filed and limits the rights of a municipality to change the rules in the middle of the game. Id.
Reagan and Lamar claim that if the regulation in
place at the time their permit applications were filed
was unconstitutional, Austin cannot apply its offpremise limitations when assessing their applications
to install digital sign faces. The district court did not
reach that issue. Pet. App. 40a. Instead, it found that
Austin’s on-premise/off-premise distinction satisfied

6
intermediate scrutiny and was constitutional.
App. 50a, 53a.

Pet.

Contrary to Austin’s description of the case, the
issue before the Fifth Circuit was not whether
the First Amendment compels the city to grant permit
applications to install digital sign faces. That end
result will be determined under Texas law. The
issue was whether the general prohibition of all “offpremise” messages, and the related provision which
prohibited digitalization of “grandfathered” signs, was
a content-based regulation of speech requiring strict
scrutiny.
The Fifth Circuit held “the on-premise/off-premise
distinction [in Austin’s former code provision] is
content-based and fails under strict scrutiny. It thus
runs afoul of the First Amendment.” Pet. App. 27a.
Austin did not petition for a rehearing en banc. The
case was remanded to the district court for further
proceedings, where the remedy sought by Reagan and
Lamar will be determined pursuant to Texas law.
ARGUMENT
A. The Fifth Circuit’s decision does not raise
an important question of federal law that
needs to be settled by this Court.
1. The Fifth Circuit’s holding was completely consistent with Reed’s majority
opinion.
The issue decided by the Fifth Circuit was simple.
Austin’s sign code prohibited signs that carried certain
messages. The code established a general prohibition
of “off-premise” signs, a prohibition that applied to a
sign depending on the message the sign carried, no
matter where the sign was located. If the message

7
advertised a business, person, activity, goods, or
services that were not located on the site where the
message appeared, the message was prohibited. If the
message directed persons to some other location, for
any reason, it was prohibited. For example, a sign on
church property inviting people to attend that church
was allowed. But the same sign structure, in the very
same place, was prohibited from inviting people to
attend services at another church.
It was a town’s regulation of signs directing people
to church services at another location that gave rise to
this Court’s opinion in Reed v. Town of Gilbert, 576
U.S. 155 (2015). In Reed, a small church in Gilbert,
Arizona had no building of its own. The church posted
signs around town advertising its church services and
directing persons to the location where those services
would be held. The sign violated the town’s sign
regulation, which limited the ability of persons to put
up temporary signs directing the public to a meeting
of a non-profit group. Id. at 159.
In finding that this regulation violated the First
Amendment, this Court stated, “[a] law that is
content-based on its face is subject to strict scrutiny
regardless of the government’s benign motive, contentneutral justification, or lack of ‘animus towards the
ideas contained’ in the regulated speech.” Id. at 165.
Content-based laws are laws that target speech based
on its communicative content. Id. at 163. Such laws
will be stricken unless the government can meet a
strict scrutiny standard. Id.
In Reed, this Court instructed that, in a First
Amendment challenge to laws that target speech,
courts must use a content-neutrality analysis that
involves two distinct inquiries. Id. at 166. The crucial
first step is to determine whether the law is content-

8
based on its face. Id. at 165. If it is, the law is subject
to strict scrutiny. The government’s justification or
purpose for enacting the law is irrelevant. Only if the
law is content neutral on its face may a court continue
the analysis by turning to the law’s justification or
purpose. Id. at 166.
Before this Court decided Reed, some courts, including the Fifth Circuit, looked at both questions in
determining whether a law was presumptively unconstitutional. Id. at 165. Where a law was not content
neutral on its face, courts would decide whether the
government’s justification for the law was contentneutral. See Asgeirsson v. Abbott, 696 F.3d 454, 45960 (5th Cir. 2012), cert. denied, 568 U.S. 1249 (2013).
In Asgeirsson, the Fifth Circuit had said, “A statute
that appears content-based on its face may still be
deemed content-neutral if it is justified without regard
to the content of the speech.” Id. Reed changed all
that.
In this case, the Fifth Circuit did nothing more than
follow Reed. The court looked at Austin’s “off-premise”
definition and found it was content-based on its face.
For that reason, Austin’s regulation was subject to
strict scrutiny. The Fifth Circuit’s conclusion should
be no surprise. For years, courts had recognized that
such message-based definitions of “off-premise” signs
were, in fact, content-based regulations. See part C.2.
infra.
Austin’s sign code treated signs differently, depending on the message the sign carried. The analysis
described in Reed meant the regulation would be
subject to strict scrutiny, and that the government’s
justification or purpose for the law was irrelevant.
This Court’s majority opinion in Reed recognized that
its analysis would result in some local regulations

9
being stricken, but found that result to be necessary.
It stated, “a clear and firm rule governing content
neutrality is an essential means of protecting the
freedom of speech, even if laws that might seem
‘entirely reasonable’ will sometimes be ‘struck down
because of their content-based nature.’” 576 U.S. at
171 (quoting City of Ladue v. Gilleo, 512 U.S. 43, 60
(1994)(O’Connor, J., concurring)).
2. Metromedia’s test for regulation of
commercial speech is unaffected by the
Fifth Circuit’s holding.
The clear and firm rule set out in Reed has been
in place for six years. Contrary to Austin’s handwringing, local governments continue to regulate
billboards to protect safety and esthetic values, and
they can do so without running afoul of Reed.
Following the decision in Reed, courts have
consistently held that Reed’s analysis applies only
to sign regulations affecting noncommercial speech.
Regulation of commercial speech continues to be
governed by Metromedia. See Contest Promotions,
LLC v. City and County of San Francisco, 874 F.3d
597, 601 (9th Cir. 2017) (because noncommercial signs
are exempted from the regulatory framework, the
regulations are subject to intermediate scrutiny under
Central Hudson); Thomas v. Bright, 937 F.3d 721, 729
(6th Cir. 2019) (the speech at issue concerned noncommercial speech so the analysis need not consider
the commercial-speech doctrine). Under Metromedia,
local governments may continue to use the same
content-based definition for “off-premises” signs, as
long as the targeted speech is commercial speech.
Austin makes colorful but vague complaints that the
Fifth Circuit has somehow undermined Metromedia.

10
Pet. 2, 24. (Fifth Circuit used Reed to “shrink [Metromedia] to the vanishing point;” the appeals court
“eviscerates” Metromedia; the court “wrongly relegated Metromedia to bit-player status or worse” and
“shoved Metromedia entirely off the stage”).
The Fifth Circuit did no such thing. Its opinion did
what the plurality opinion in Metromedia did: It left
Central Hudson’s intermediate standard of review
in place for commercial speech, and provided greater
protection to noncommercial speech. As Justice White
wrote in Metromedia:
In sum, insofar as it regulates commercial
speech the San Diego ordinance meets the
constitutional requirements of Central Hudson,
supra. It does not follow, however, that
San Diego’s general ban on signs carrying
noncommercial advertising is also valid under
the First and Fourteenth Amendments.
453 U.S. 490, 512-513 (1981).
The Fifth Circuit has summarized the key propositions established in Metromedia as follows:
It held that (1) a billboard ordinance may
permit on-premise commercial advertisement
while banning off-premise commercial advertisement; (2) the ordinance may not
distinguish among non-commercial messages
on the basis of their content; and (3) where a
city permits commercial billboards, it must
also permit non-commercial ones.
RTM Media, L.L.C. v. City of Houston, 584 F.3d 220,
225 (5th Cir. 2008).
Although Austin argues that its former off-premise/
on-premise distinction, which encompassed noncom-

11
mercial messages, is sanctioned by Metromedia, the
opposite is true. Metromedia appears to hold that offpremise/on-premise distinctions may not be made
when regulating noncommercial speech. It clearly
held that “a city may not conclude that the communication of commercial information concerning
goods and services connected with a particular site
is of greater value than the communication of noncommercial messages.” 453 U.S. at 513. Here,
Austin’s code had assigned greater value to commercial “on-premise” messages, which were allowed, than
it did to noncommercial “offsite” messages, which were
prohibited.
3. Local governments are already adjusting their laws to ensure that Metromedia will continue to apply to their
billboard regulations.
Austin makes the following request in its Petition:
If Reed requires rewriting municipal sign
codes across the country, direction is needed
before that disruptive process gets seriously
underway. And if Reed does not require such
a widespread rewrite, then that, too, is better
understood before wasteful, unnecessary
efforts are set in motion.
Pet. 17. This is an odd request since Austin has
already revised its sign code to comply with Reed.
Unlike the former sign regulation at issue in this case,
Austin’s revised regulations now exclude noncommercial speech.
Austin is not alone. In light of Reed’s teaching
and subsequent opinions limiting those teachings to
noncommercial speech, it appears that local governments have been adjusting their content-based regula-

12
tions to apply only to commercial speech. See Thomas
v. Schroer, 248 F. Supp. 3d 868, 878 (W.D. Tenn. 2017)
(“Since Reed, some local governments have begun
drafting content-based, sign-related ordinances to
apply solely to commercial speech.”); see also Contest
Promotions, LLC v. City & C’ty of San Francisco, 2017
WL 1493277, *3 (N.D. Cal. 2017), aff’d 874 F.3d 597
(9th Cir. 2017) (City of San Francisco amended its
planning code in 2016 to exempt all noncommercial
speech).
4. Austin’s ability to regulate digital
displays remains firmly in place.
Contrary to Austin’s complaint, it remains free to
pursue its goals, including regulating digital displays
and other technological changes to sign faces. In fact,
under its revised code, which excludes noncommercial
speech, Austin continues to use content-based distinctions in regulating digital signs. Pet. App. 4a-5a.
Austin claims that Reagan and Lamar “argue that
the technological restriction on the changes in the
method for billboards to deliver their advertisements
in itself is content-based.” Pet. 6. Austin is incorrect.
Reagan and Lamar’s claim arises from the code’s
general prohibition of “off-premises” messages and
related restrictions on grandfathered signs. They
argue that the First Amendment does not allow Austin
to permit some billboards to be digitized and others
not, based solely on the message the sign carries. No
one argued that Austin cannot enforce technological
restrictions on how messages are displayed as long as
the regulation is applied uniformly.
Austin also asserts that Reagan and Lamar claim
“that the First Amendment compels the city to permit
them to digitize their billboards.” Pet. 6. Again, this

13
is incorrect. Reagan and Lamar do not argue that the
First Amendment requires that they get permits to
digitize their billboards. They claim that Texas law
requires that they get permits to digitize their
billboards. They have shown that the regulation in
place at the time they applied for permits was an
unconstitutional content-based regulation. Because
that earlier regulation was unconstitutional and unenforceable, Reagan and Lamar believe that Texas law
will ultimately require that their permit applications
be granted. While this one-time result may be inconvenient to Austin’s officials, it hardly raises an
important issue of federal law that would justify this
Court abandoning its analysis in Reed.
In sum, this case is not about whether local
governments can regulate the digitization of sign
faces. Without question they can do so. Moreover, the
Fifth Circuit’s opinion in no way affects how regulations of commercial speech are to be evaluated.
Reagan and Lamar on appeal did not argue, nor did
the Fifth Circuit hold, that the analysis under
Metromedia was not still firmly in place.
B. As Austin concedes, the Fifth Circuit’s
decision does not conflict with other
circuit courts of appeals decisions.
Austin claims this Court should revisit and revise
its opinion in Reed without waiting for “distinct,
pinpoint splits among the circuits.” Pet. 17. Austin
gives no concrete reason to justify such a revision at
this time. Austin has already amended its code. The
only real concern for Austin at this point is the
possibility that Reagan and Lamar may be entitled to
the permits they seek as a result of Texas law.

14
Nevertheless, while conceding that “there may not
be a direct circuit conflict in terms of specific holdings,”
Austin argues that there are differences among the
circuits and this court should “eliminate the confusion.” Pet. 21. Any confusion, however, at least as
it concerns “on-premise/off-premise” distinctions, has
largely been resolved.
Two years after this Court decided Reed, the Ninth
Circuit provided all the clarification that local
governments needed in Contest Promotions, LLC
v. City & Cty of San Francisco, 874 F.3d 597 (9th
Cir. 2017). The code provision at issue in Contest
Promotions drew a distinction between a sign that
directs attention to a business, commodity,
industry or other activity which is sold,
offered or conducted elsewhere than on the
premises upon which the sign is located, or to
which it is affixed....
and a sign which
directs attention to the primary business,
commodity, service, industry or other activity
which is sold, offered, or conducted on the
premises upon which such sign is located or
to which it is affixed.
874 F.3d at 599-600. Significantly, San Francisco’s
code was amended shortly after Reed to distinguish
between commercial and noncommercial signs. The
latter are exempted from the regulation entirely. Id.
at 601.
The Ninth Circuit rejected the argument that Reed
altered Central Hudson’s longstanding intermediate
scrutiny test for regulation of commercial speech.
Because noncommercial signs are exempted from San

15
Francisco’s regulatory framework, the code provision
at issue was a regulation of commercial speech. It
was therefore subject to intermediate scrutiny under
Central Hudson. Id. at 601. The issue here is the
flip side of the Ninth Circuit’s holding in Contest
Promotions. A distinction between “on-premise” and
“off-premise” messages, made in a regulation that does
not exempt noncommercial speech, is subject to strict
scrutiny under Reed.
As the Fifth Circuit noted below, the Sixth Circuit
addressed that precise question in Thomas v. Bright,
937 F.3d 721 (6th Cir. 2019), cert. denied, 141 S. Ct.
194 (2020). The on-premise/off-premise regulation at
issue in Thomas implicated noncommercial speech.
The regulation prohibited all signage speech, except
for an “on-premises exception” which allowed signs
advertising activities conducted on the property on
which the sign is located. The Sixth Circuit found the
issue of whether this regulation was content-based to
be “neither a close call nor a difficult question.” Id. at
729. And because the regulation restricted noncommercial speech, the court held it was subject to
strict scrutiny. 937 F.3d at 733.
First the Sixth Circuit and now the Fifth Circuit
have squarely held that the type of on-premise/offpremise regulation at issue here is clearly a contentbased regulation, and is subject to strict scrutiny when
it implicates noncommercial speech. Federal district
courts have had no trouble in applying this rule. See
GEFT Outdoor, L.L.C. v. City of Westfield, 491 F.
Supp. 3d 387, 403 (S.D. Ind. 2020) (prohibition against
off-premises signs was content-based and because the
regulation applied to both commercial and noncommercial
speech it was subject to strict scrutiny); Reagan Nat’l

16
Advert. of Austin, Inc. v. Cedar Park, 387 F. Supp.3d
703, 712-13 (W.D. Tex. 2019) (same).
The Third Circuit did express doubt as to whether
Reed addressed on-premise/off-premise regulations at
all. Adams Outdoor Advertising Ltd. P’ship v. Pa.
Dep’t. of Transp., 930 F.3d 199, n. 1 (3d Cir. 2019). In
Adams, the plaintiff had challenged an exemption to a
regulation that applied to signs that “advertise the
sale or lease of, or activities being conducted upon, the
real property where the signs are located.” Id. at 206.
The Third Circuit has its own hierarchy of scrutiny for
sign regulations. It applies a special “context-specific”
scrutiny of “for sale or lease” signs that was crafted in
Rappa v. New Castle County, 18 F.3d 1043 (3d Cir.
1994). 930 F.3d at 207. It also applies a different level
of scrutiny, intermediate scrutiny, for on-premise
signs concerning activities on the property. Id. The
court of appeals in Adams found that the government
failed to meet its burden under either of those levels of
scrutiny and remanded the case for further litigation.
In a footnote, the court of appeals declined to deviate
from Rappa and apply a strict scrutiny standard. The
court believed that the “splintered reasoning” in Reed
did not establish a legal standard for the case before
it. Id. at 207, n.1. The footnote did not address or even
mention the critical distinction between commercial
and noncommercial speech that has now been analyzed by the Ninth, Sixth, and Fifth Circuits since
Reed was decided.
The D.C. Circuit also addressed the scope of Reed,
but in connection with a very different type of sign
regulation. Act Now to Stop War and End Racism
Coal’n v. Dist. of Columbia, 846 F.3d 391 (D.C. Cir.),
cert. denied, 138 S. Ct. 334 (2017). Act Now involved
limitations on the duration and manner in which the

17
public may use government property for expressive
conduct. Specifically, the regulation involved the
public’s use of city lampposts to post signs. The D.C.
Circuit found the regulation did not target the
“communicative content” of the signs, but uniformly
restricted the duration that event notices may remain
physically affixed to public lampposts. 846 F.3d at
403. The opinion reasoned that just because an official
would need to read the date on a poster to determine
whether it had been up too long, did not mean the
regulation was content-based. Id. at 404.
The Fifth Circuit opinion in this case noted that in
Act Now the D.C. Circuit found that Reed would
tolerate certain inquiries into content of a sign, so long
as the inquiries were merely “cursory examinations.”1
The Fifth Circuit did not see an exception in Reed for
mere “cursory” exceptions. However, the opinion went
on to distinguish Act Now by finding that under
Austin’s sign ordinance, determining whether a sign’s
message was an on-premise or off-premises message
was not a “cursory” inquiry. Pet. App. 17a. Indeed,
1

The Sixth Circuit in Thomas described three different means
for deciding whether a particular regulation is content-based or
content-neutral, as follows: “A law regulating speech is facially
content-based if it ‘draws distinctions based on the message,’
Reed, 135 S. Ct. at 2227; if it ‘distinguish[es] among different
speakers, allowing speech by some but not by others,’ Citizens
United v. Federal Election Comm’n, 558 U.S. 310, 340 (2010); or
if, in its application, ‘it require[s] enforcement authorities to
examine the content of the message that is conveyed to determine
whether a violation has occurred,’ McCullen v. Coakley, 573 U.S.
464, 479 (2014).” Thomas v. Bright, 937 F.3d 721, 729 (6th Cir.
2019) (cites omitted). In addition to looking at the distinctions
drawn between messages as described in Reed, both the Sixth
Circuit and the Fifth Circuit looked to the “examination by
enforcement authorities” test as well.

18
the questions the court posed at oral argument based
on hypothetical signs had stumped the counsel for the
City. Id.
In any event, the D.C. Circuit’s willingness to allow
a “cursory examination” of signs by enforcement
officers arose in connection with a regulation limiting
the duration that a sign could stay up on government
property. In contrast, the regulation at issue here
concerns whether certain messages, displayed on
private property, can go up at all.
Public use of government property comes with
its own rules, rules that are different for local sign
codes governing speech on private property. See,
e.g., Members of the City Council of Los Angeles v.
Taxpayers for Vincent, 466 U.S. 789, 814 (1984)
(lampposts can be used as signposts, but that does not
mean the Constitution requires that such uses be
permitted; public property may be reserved by the
State for its intended purposes); Reed, 576 U.S. at 173
(on public property a town may go a long way toward
entirely forbidding the posting of signs as long as it
does so in a content-neutral manner); see also
Matthews v. Needham, 764 F.2d 58, 61 (1st Cir. 1985)
(the special nature of private property may justify a
greater degree of First Amendment protection).
There is no conflict among the circuits on how Reed
applies to on-premise/off-premise distinctions restricting noncommercial messages displayed on private
property. All three courts of appeals that have considered the issue (the Ninth, Sixth, and Fifth Circuits)
appear to agree that local governments are free to
make content-based distinctions, as long as noncommercial speech is clearly exempted. But where, as
here, the (now defunct) regulation applied to both

19
commercial and noncommercial speech, Reed requires
strict scrutiny.
C. The Fifth Circuit’s decision was correct.
The only issue raised by Austin in this case
is whether the Fifth Circuit erred in holding that
Austin’s prohibition of certain messages was a
content-based regulation. Austin essentially argues
that the Fifth Circuit should not have followed Reed in
this case because its sign code does not target specific
ideas or viewpoints, and because the distinction at
issue applies only to so-called “locationally based”
messages. Common sense and consistent holdings
from other courts demonstrate the Fifth Circuit did
not err. Austin’s sign code’s definition of “off-premise”
was, on its face, content-based.
1. Austin’s goals and
irrelevant under Reed.

motives

are

Austin appears to argue that its targeting of this
particular category of speech should not be treated as
content-based because the city’s motives are pure.
Pet.1 (a city must draw distinctions between offpremise and on-premise signs to protect public safety
and ensure local aesthetic values are not degraded).
Austin’s position is nothing more than an argument
that if the government has a neutral justification for
its content-based regulation, the regulation should be
deemed content neutral. This is exactly the analysis
that was rejected in Reed. Reed expressly held that
the government’s justification for a regulation is
irrelevant if the regulation is content-based on its face.
Austin also claimed that its regulation was not
content-based because it did not target one specific
viewpoint or message. The Fifth Circuit correctly held

20
that the sign code “does not need to discriminate
against a specific viewpoint to be ‘content-based.’” Pet.
App.18a. “As explained in Reed, ‘A regulation that
targets a sign because it conveys an idea about a
specific event is no less content-based than a
regulation that targets a sign because it conveys some
other idea.’ 576 U.S. at 171.” Pet. App. 18a. The
regulation at issue in Reed certainly did not target
Pastor Reed’s signs because of a specific viewpoint.
576 U.S. at 155 (at issue were signs bearing the church
name and the time and location of the next service).
2. Austin’s regulation is not based on the
location of the sign, but on what the
sign says.
Austin claims that its definition of “off-premise” is
concerned with the location of the sign itself, and
not with what the sign says. This argument defies
common sense and was rejected long before this
Court’s opinion in Reed. See Ackerley Commc’n of
Mass., Inc. v. City of Cambridge, 88 F.3d 33, 36, n. 3 &
7 (1st Cir. 1996).
In Ackerley, the law required that a billboard
company’s noncommercial, off-premises messages
must be taken down. The billboard company argued
that the law was invalid because it imposed “an
impermissible content-based restriction on speech:
whether a sign may remain is determined by the
message it carries.” 88 F.3d at 36. The First Circuit
stated, “[i]n ‘commonsense’ terms, the distinction
[between onsite and offsite signs] surely is contentbased because determining whether a sign may stay
up or must come down requires consideration of the
message it carries.” Id. at n. 7.

21
The First Circuit also noted: “The descriptive terms
‘off-premise’ and ‘on-premise’ can be misleading when
used to modify the word ‘sign,’ since the applicable
category is determined not by the sign’s location, but
by its message .... a sign attached to a building can
carry either off-premise or on-premise messages.” Id.
This same potential for confusion may have led the
district court in this case astray when it said, “This is
a regulation based on location, not ‘based on the
message a speaker conveys.’” Pet. App. 50a. But
Austin’s prohibition is not based on where the sign is
located. It forbids certain messages regardless of
where the sign happens to be situated. Whether the
sign must come down depends solely on what the sign
says.
Other courts looking at the same issue were not
distracted by the term “off-premise.” As one district
court said in a case involving an “off-premise”
definition similar to Austin’s sign code: “Under the
ordinance, whether a sign satisfies the ordinance
depends on what it says. The speech on the sign must
relate to an activity going on at the premises. ... [the]
signage ordinance is not content neutral. It prohibits
all kinds of speech because of what it says.” Burkhardt
Advertising, Inc. v. City of Auburn, Indiana, 786 F.
Supp. 721, 732 (N.D. Ind. 1991).
The Sixth Circuit made short work of this so-called
“locationally based” distinction in Thomas v. Bright,
937 F.3d 721, 729 (6th Cir. 2019), cert. denied, 141 S.
Ct. 194 (2020). In that case, the State of Tennessee,
like Austin in this case, argued that the operative
distinction was between signs based on their location,
not their content. Finding the issue to be “neither a
close call nor a difficult question,” that court stated:

22
Tennessee’s argument is specious: whether
the Act limits on-premises signs to only
certain messages or limits certain messages
from on-premise locations, the limitation
depends on the content of the message. It
does not limit signs from or to locations
regardless of the messages - those would be
the (content neutral) limitations that would
fit its argument.
937 F.3d at 731. See also L.D. Management Co. v.
Gray, 988 F.3d 836 (6th Cir. 2021) (law imposing
special requirements on roadside billboards that
advertise off-site activities, which apply to both
commercial and noncommercial speech, is a contentbased regulation on its face).
In Reed, this Court said “a speech regulation is
content-based if the law applies to particular speech
because of the topic discussed or the idea or message
expressed.” 576 U.S. at 171. If a prohibition applies
because of the “message expressed,” the regulation is
content-based. As the majority opinion pointed out,
“[h]ere the Code singles out signs bearing a particular
message: the time and location of a specific event.” Id.
The same is true of Austin’s regulation. It singles
out signs bearing particular messages. It singles out
signs that direct people to another location. It singles
out signs with messages that direct attention to
activities, persons or services located elsewhere.
Logically, it is no different than a regulation that
singles out signs bearing the message of the time and
location of a specific event, as did the regulation at

23
issue in Reed. Indeed, Austin’s former regulation
would have prohibited the sign at issue in Reed.2
3. Austin asks this Court to carve out an
unnecessary and problematic exception
to Reed.
The majority opinion in Reed gave examples of
content-neutral options available to a city to resolve
problems with safety and aesthetics that have nothing
to do with the sign’s message, including: “size, building
materials, lighting, moving parts, and portability.”
576 U.S. at 173. Absent from the majority’s list were
rules distinguishing between on-premises and offpremise signs.
That type of regulation did appear in Justice Alito’s
concurrence, however. Included in his list of rules that
would not be content-based were “[r]ules distinguishing between on-premises and off-premises signs.” Id.
at 175 (J. Alito concurring, joined by J. Kennedy and
J. Sotomayor). Austin argues that the inclusion of this
rule in Justice Alito’s concurrence “takes the city’s onpremise/off-premise distinction outside the contentbased rule announced in Reed.” Pet. 14.

2

The majority opinion in Reed cited two cases that it described
as addressing “similar content-based sign laws” that were subject
to strict scrutiny. 576 U.S. at 173 (citing Matthews v. Needham,
764 F.2d 58, 59-60 (1st Cir. 1985), and Solantic, LLC v. Neptune
Beach, 410 F.2d 1250, 1264-69 (11th Cir. 2005)). Both cases
included distinctions between on-premise signs and other signs.
Matthews involved a distinction drawn between political signs
and certain on-premise signs. 764 F.2d at 60. The regulation at
issue in Solantic contained many content-based exemptions,
including messages about on-site activities. 410 F.3d at 1258
(exemptions included on-site “for sale” signs and on-site signs to
advertise temporary uses like fairs, festivals and revivals).

24
Austin’s position is essentially that the majority
opinion made a mistake, a mistake that Justice Alito
tried to fix in his concurrence, and one that this Court
should now repair. Essentially, Austin asks this Court
to now carve out the following exception to the rule
established in Reed’s majority opinion: Where the
prohibited messages concern the location of persons,
activities, services or goods, Reed simply should not
apply. According to Austin, a government prohibition
of those particular messages should not be subject to
strict scrutiny regardless of whether the restricted
speech includes noncommercial messages.
However, Austin fails to demonstrate why such an
exception to Reed is needed. There is no indication of
actual confusion among local governments as to how
to lawfully use an on-premise/off-premise distinction
in light of Reed and Metromedia. Local governments
can make rules that distinguish between on-premise
and off-premise signs as long as noncommercial speech
is exempted from the rule.
Further, the exception urged by Austin has its own
First Amendment flaw. It is well-established that the
government “may not value certain types of noncommercial speech more highly than others.” Ackerley
Commc’n, 88 F.3d at 37. While a city may favor certain
types of commercial speech in this way, it may not do
so in the area of noncommercial speech. RTM Media,
LLC v. City of Houston, 584 F.3d 220, 224 (5th Cir.
2010) (citing Metromedia, Inc. v. City of San Diego, 453
U.S. 490 (1981)).
As this Court said in Metromedia, “[a]lthough the
city may distinguish between the relative value of
different categories of commercial speech, the city does
not have the same range of choice in the area of
noncommercial speech to evaluate the strength of, or

25
distinguish between, various communicative interests.” 453 U.S. at 515.
The result of an on-premise/off-premise carve-out to
Reed would be to favor some noncommercial speakers
over others. See Ackerley, 88 F.3d at 37 (a regulation
of noncommercial speech that drew on-premise/offpremise distinctions suffered from a First Amendment
flaw). For example, noncommercial organizations with
buildings in advantageous locations would be favored
over other institutions located on quiet streets. And
noncommercial speakers with no permanent location
for their activities would be at the bottom of the list:
They would have no place to post their signs, which
was the same disadvantage faced by the church in
Reed.
The proposed exception would also assign greater
value to “on-premise” commercial speech and less
value to “off-premise” noncommercial speech in contravention of Metromedia. 453 U.S. at 513 (a city may
not conclude that the communication of commercial
information concerning goods and services connected
with a particular site is of greater values than the
communication of noncommercial messages). (For a
clear demonstration of that problem, see the “puppy
mill” hypothetical described in Thomas. 937 F.3d at
736.)
The Fifth Circuit’s application of the analysis
described in Reed’s majority opinion was correct. If
further clarification of Justice Alito’s concurrence
should ever be required, it should happen only after
different circuit courts of appeals have conducted
reasoned analyses and reached opposite conclusions.
To date, no such conflict exists, and it is likely that it
never will. Moreover, the narrow dispute presented in
this case, which ultimately hinges on Texas law and

26
concerns a regulation that has been repealed, is
certainly not the vehicle for such a review.
CONCLUSION
The petition for a writ of certiorari should be denied.
Respectfully submitted,
B. RUSSELL HORTON
GEORGE, BROTHERS, KINCAID
& HORTON, LLP
114 West 7th Street
1100 Norwood Tower
Austin, Texas 78701

J. ALLEN SMITH
Counsel of Record
SETTLEPOU
3333 Lee Parkway
Eighth Floor
Dallas, Texas 75219
(214) 520-3300
asmith@settlepou.com

Counsel for Respondents
May 12, 2021

